IN THE SUPREME COURT OF THE UNITED STATES

No. 19-107
VINCENT ASARO, PETITIONER
V.

UNITED STATES OF AMERICA

CERTIFICATE OF COMPLIANCE WITH WORD-COUNT LIMITATIONS

I, Amy Mason Saharia, counsel for petitioner and a member of
the Bar of this Court, certify that the Petitioner's Reply Brief
in Support of Petition for a Writ of Certiorari in the abovecaptioned case contains 2,185 words,

excluding the parts of the

brief that are exempted by Rule 33.1(d).

(^A\
Amy Mason Saharia
November 18, 2019

